IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-7292

MATTHEW LEE STASZAK,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

PETITION FOR REHEARING ON WRIT OF CERTIORARI WITH
ATTACHMENT "A"

Matthew L. Staszak, pro se,
Reg. No. 24227-171
Federal Correctional Complex (Low)
P.O. Box 9000-Low
Forrest City, Arkansas 72336-9000

RECEIVED
APR - 5 2021
OF THE CLERK
ME COURT, U.S.
SUPRE

PETITION FOR REHEARING ON WRIT OF CERTIORARI WITH
ATTACHMENT "A"

COMES NOW MATTHEW LEE STASZAK, Petitioner, pro se, and
petitions for a rehearing and states as follows:

Petitioner Staszak brings forth his request that Appendices (A-16) and
Question 2 of the Writ of Certiorari be reconsidered per Supreme Court Rule 44.

Staszak's petition is filed timely.

CERTIFICATE:

This petition for rehearing incorporates the previous Writ of Certiorari, Case
No. 20-7292, by reference of its entirety, but only limited to Question II and (A16). The grounds are limited to intervening circumstances of substantial or
controlling effect and to other substantial grounds not previously presented in
support of Question II and Appendices (A-16) as previously presented.

1

This petition for rehearing hereby includes (Attachment "A") of an ethics
complaint recently filed with the Seventh Circuit. Attachment "A" is additional
supporting documentation of other substantial grounds not previously presented in
support of the previously presented Question II and (A-16).

WHEREFORE, Petitioner prays for a review and reconsideration by the
Supreme Court. This petition presented is in good faith and not for delay.

Date: March 30, 2021
Respectfully submitted,

AK
MATT EW
2422
Reg.
Federal Correctional Complex (Low)
P.O. Box 9000-Low
Forrest City, Arkansas 72336-9000

2

